Record Press Inc., 229 West 36th Street, New York, N.Y. 10018 ·
Tel No.: (212) 619-4949 · Fax No. (212) 608-3141
87019
STATE OF NEW YORK,
COUNTY OF NEW YORK

)

AFFIDAVIT OF SERVICE

SS:

)

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and
is over 18 years of age.
That on the 3rd day of May 2021 deponent served 3 copies of the within

PETITION FOR WRIT OF CERTIORARI
upon the attorneys at the addresses below, and by the following method:

BY FEDEX NEXT BUSINESS DAY
Kirkland E. Reid
The Finley Firm, P .C.
200 13th Street
Columbus, GA 3190 I
Telephone: (706) 322-6226
kreid@thefinleyfirm.com
I, Howard Daniels, declare under penalty of perjury under the laws of the United States of
America that the foregoing is true and correct, executed on May 3, 2021, pursuant to Supreme
Court Rule 29.5(c). All parties required to be served, have been served.

J4dJL {)�.
Howard Daniels

Sworn to before me on
May 3, 2021
ALESSANDRA KANE
Notary Public, State of New York
No. 01KA6340521
Qualified in Richmond County
Commission Expires April 18, 2024

Case Name: Keohane v. Florida Department of
Corrections Secretary
Docket/Case No.

